Case 19-3103, Document 117-1, 10/15/2020, 2952529, Pagel of 9

19-3103
Pappas v. Lorintz

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 15th day of October, two thousand twenty.
PRESENT:
JOHN M. WALKER, JR.,
PIERRE N. LEVAL,
JOSEPH F. BIANCO,
Circuit Judges.

Anthony Pappas, for Congress, a political
organization created under Title 52 of the Federal
Code and individually,
Plaintiff-Appellant,
v.

19-3103

Joseph Lorintz, individually and as Supreme Court
Judge of the State of New York, Henry Kruman,
Maria Pappas, TD Bank, N.A., State of New York,
Defendants-Appellees.

FOR PLAINTIFF-APPELLANT:

FOR DEFENDANTS-APPELLEES LORINTZ
and STATE OF NEW YORK:

Anthony Pappas, pro se,
Astoria, NY.

Caroline A. Olsen, -

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page2 of 9

Assistant Solicitor General
(Barbara D. Underwood,
Solicitor General; Anisha S.
Dasgupta, Deputy Solicitor
General; on the brief), for
Letitia James, Attorney
General of the State of New
York, New York, NY.
FOR DEFENDANT-APPELLEE TD BANK, N.A.:

FOR DEFENDANTS-APPELLEES KRUMAN
and MARIA PAPPAS:

Jeffrey J. Chapman (Aaron F.
Jaroff, on the brief, McGuire
Woods LLP, New York, NY.

Henry E. Kruman, Kruman &
Kruman P.C., Malveme NY.

Appeal from a judgment of the United States District Court for the Eastern District of
New York (Seybert, J.; Tomlinson, M.J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Plaintiff Anthony Pappas, proceeding pro se, along with his political campaign
organization Anthony Pappas for Congress (together, “Pappas”), appeal the district court’s August
26, 2019 order adopting the magistrate judge’s August 2, 2019 report and recommendation
(“R&R”) in its entirety and dismissing his complaint under 42 U.S.C. § 1983 against his ex-wife
Maria Pappas, her divorce attorney Henry Kruman, the State of New York, New York State
Supreme Court Justice Joseph Lorintz, and TD Bank, N.A. (together, “defendants”).

On July 24,

2018, Pappas filed the instant action, claiming that both a “gag order” and a financial restraint
placed on his bank account pursuant to a state court divorce proceeding violated the First
Amendment, the Fourteenth Amendment’s Due Process and Equal Protection Clauses, and federal
election law.

He sought damages, a declaration that the state court orders were unconstitutional,
2

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page3 of 9

and an injunction against their enforcement.
About five years earlier, in August 2013, Pappas filed suit in the district court similarly
claiming the same “gag order” violated his First Amendment, due process, and equal protection
rights.

The district court dismissed his claims for lack of subject matter jurisdiction under the

“domestic relations exception” and, alternatively, because sovereign and judicial immunity barred
his claims against the State defendants and because Kruman and Maria Pappas were not state
actors.

See Pappas v. Zimmerman (“Pappas /”), No. 13-CV-4883, 2014 WL 3890149, at *3-6

(E.D.N.Y. Aug. 6,2014).

In the instant case, the district court concluded, inter alia, that Pappas

/collaterally estopped Pappas from asserting the same constitutional claims and, in any event, his
constitutional claims were similarly without merit.

Moreover, it concluded that there was no

private right of action for Pappas to allege a violation of federal election law in federal court.

The

district court also ordered Pappas to show cause why a limited filing injunction should not be
issued against him.

We assume the parties’ familiarity with the underlying facts, the procedural

history of the case, and the issues on appeal.
This Court reviews de novo a district court’s dismissal under Federal Rule of Civil
Procedure 12(b)(1) and 12(b)(6).

Smith v. Hogan, 794 F.3d 249, 253 (2d Cir. 2015).

“We also

review a district court’s application of the doctrine of collateral estoppel de novo, accepting all
factual findings of the district court unless clearly erroneous.”
846 F.3d 22, 29 (2d Cir. 2017) (quotation marks omitted).

Trikona Advisers Ltd. v. Chugh,

“We review a district court’s decision

to impose sanctions under its inherent powers for abuse of discretion.”
702 F.3d 720, 723 (2d Cir. 2012).

3

Wilson v. Citigroup, N.A.,

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page4 of 9

I.

Constitutional Claims

The district court was correct in determining that collateral estoppel applied.

“Under

federal law, collateral estoppel applies when (1) the identical issue was raised in a previous
proceeding; (2) the issue was actually litigated and decided in the previous proceeding; (3) the
party had a full and fair opportunity to litigate the issue; and (4) the resolution of the issue was
necessary to support a valid and final judgment on the merits.”

Purdy v. Zeldes, 337 F.3d 253,

258 (2d Cir. 2003) (quotation marks and footnote omitted).

Collateral estoppel “may be

inappropriate,” however, where “controlling facts or legal principles have changed significantly
since the initial decision.”

Wyly v. Weiss, 697 F.3d 131, 143-44 (2d Cir. 2012) (quotation marks

omitted); see also Montana v. United States, 440 U.S. 147, 155 (1979).
In Pappas I, as relevant here, Pappas claimed (1) that the gag order violated his First
Amendment rights by imposing a “prior restraint” on his speech; (2) that he was deprived of his
due process rights because he was denied a fair divorce proceeding; and (3) that he was denied
equal protection because the New York “court system favors female litigants over male litigants.”
Pappas 7,2014 WL 3890149, at *2.
verbatim.

In the present case, Pappas has repeated these claims almost

Furthermore, these claims were actually and fully litigated in Pappas I, and were either

subject to a valid and final judgment on the merits or to a conclusive adjudication that they were
not within the jurisdiction of the federal courts.

As noted above, the district court in Pappas I

dismissed these claims for lack of subject matter jurisdiction under the “domestic relations
exception” and, alternatively, because sovereign and judicial immunity barred his claims against
the State defendants and because Kruman and Maria Pappas were not, and did not conspire with,
state actors.

See Pappas I, 2014 WL 3890149, at *3-6.
4

Although the parties are not identical,

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page5 of 9

mutuality of parties is not required for application of collateral estoppel where, as here, the same
party (Pappas) raises identical claims.

See ACLI Gov’t Sec., Inc. v. Rhoades, 963 F.2d 530, 533

(2d Cir. 1992).
Legal principles, however, have changed since Pappas I.

Following the district court’s

adoption of the R&R below, this Court concluded in Deem v. DiMella-Deem that “the domestic
relations exception clearly does not apply” in cases “before this Court on federal question
jurisdiction, not diversity.”

941 F.3d 618, 621 (2d Cir. 2019) (quotation marks omitted), cert.

denied, 140 S. Ct. 2763 (2020).

Thus, because the district court’s subject matter jurisdiction was

predicated on a federal question, not diversity, the court’s dismissal of Pappas’s constitutional
claims, to the extent based on the domestic relations exception, no longer comports with the law
of this circuit.

However, we also stated in Deem that, even though the domestic relations

exception applied only in diversity cases, “its goal of leaving family disputes to the courts best
suited to deal with them was equally strong, if not stronger,” in some non-diversity contexts.
(brackets omitted) (quoting Allen v. Allen, 48 F.3d 259, 262 n.3 (7th Cir. 1995)).

Id.

We therefore

concluded that, even where the domestic relations exception does not apply, a court might
nevertheless exercise “domestic relations abstention” where a litigant’s claims are “on the verge
of being matrimonial in nature” and where “there is no obstacle to their full and fair determination
in state courts.”

Id. at 621-22 (quotation marks omitted).

We need not determine here whether the district court would have been correct to decline
jurisdiction under domestic relations abstention because, even assuming that the district court erred
by declining to exercise jurisdiction over the constitutional claims, the district court was correct to
collaterally estop those claims on separate grounds.
5

In Pappas I, the district court stated that if

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page6 of 9

the domestic relations exception did not apply, the judicial defendants were nevertheless protected
under principles of sovereign immunity and judicial immunity, and non-state actors like Kruman
and Maria Pappas could not be sued pursuant to § 1983.

Pappas I, 2014 WL 3890149, at *4-5.

In the instant action, the district court was therefore correct to dismiss Pappas’s constitutional
claims on the ground that they were previously fully and fairly litigated.

In Pappas I, the district

court dismissed the claims at issue on two alternative grounds: first, on the basis that a federal
court lacked jurisdiction to hear them by reason of the domestic relations exception and,
alternatively, because certain claims could not be adjudicated in federal court under the Eleventh
Amendment, while other claims were without merit.

Because the law with respect to the federal

courts’ ability to hear claims involving domestic relations has changed, the district court’s
alternative holdings have become the pertinent ones, and those holdings have preclusive effect
here.

Accordingly, those claims cannot now be relitigated.
Furthermore, even if this were not the case, we would find that the district court’s dismissal

of Pappas’s constitutional claims was correct.

Specifically, because Justice Lorintz operated in

his judicial capacity at all times applicable to this case, he has absolute immunity from lawsuits
for damages for his judicial actions.

See Bliven v. Hunt, 579 F.3d 204, 209 (2d Cir. 2009); see

also Mireles v. Waco, 502 U.S. 9, 9-10 (1991).

Although Pappas also sought declaratory and

injunctive relief against Justice Lorintz, the Eleventh Amendment bars actions for such relief
against state officials that in effect seek to remedy “a past violation of federal law, even though
styled as something else,” as opposed to a “continuing violation.”

Vega v. Semple, 963 F.3d 259,

282 (2d Cir. 2020) (quoting Papasan v. Allain, 478 U.S. 265, 278 (1986)).

Here, rather than

alleging some prospective harm, Pappas’s claim is focused purely on the alleged harm done to his
6

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page7 of 9

2018 Congressional campaign by the state court orders, effectively making it a suit to remedy a
past violation as opposed to an ongoing one.

Though the State was not a party to the 2013

lawsuit, it nevertheless possesses Eleventh Amendment immunity on the same grounds.
Jo C. v. New York State and Loc. Ret. Sys., 707 F.3d 144, 151-52 (2d Cir. 2013).

Mary

Finally, Maria

Pappas, her lawyer Kruman, and TD Bank, N.A., are not state actors, nor were they “acting under
color of state law,” and therefore are not subject to a § 1983 claim.
752 F.3d 224, 229 (2d Cir. 2014).

McGugan v. Aldana-Bernier,

In short, the district court was correct to dismiss Pappas’s

constitutional claims.
II.

Federal Election Law Claim

Pappas also purports that defendants violated federal election law, an issue that he did not
raise in Pappas I.

Collateral estoppel bars parties only from “relitigating in a subsequent action

an issue of fact or law that was fully and fairly litigated in a prior proceeding.”
Characters, Inc. v. Simon, 310 F.3d 280, 288 (2d Cir. 2002).

Marvel

While Pappas’s election law claim

is tangentially related to issues revolving around Pappas’s divorce that were already decided, how
those issues pertain to the federal election law context has not been fully and fairly litigated.
Therefore, the federal election law issues are not precluded.
Though not estopped by issue preclusion, the federal election law claim is meritless.
Citing 52 U.S.C. § 30114(b), Pappas argues that the provision’s admonition that contributions or
donations to federal election candidates “shall not be converted by any person to personal use”
applies to the restraint on his bank account.
right of action.

This statute does not, however, provide a private

Rather, individuals who allege violations of the act “may file a complaint with

the [Federal Election] Commission,” which then acts on such complaints.
7

52 U.S.C.

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page8 of 9

§ 30109(a)(1).

Absent any language providing for a private right of action, there is nothing to

suggest Pappas may proceed with one here.

See Gonzaga Univ. v. Doe, 536 U.S. 273,280 (2002)

(“[U]nless Congress ‘speak[s] with a clear voice,’ and manifests an ‘unambiguous’ intent to confer
individual rights, federal funding provisions provide no basis for private enforcement by § 1983.”
(second alteration in original) (quoting Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S. 1,
17, 28 & n.21 (1981))).
III.

Filing Injunction

Finally, Pappas argues that a filing injunction imposed by the district court was “ludicrous”
and “wholly unsupported on this record.”

Appellant’s Br. at 25.

The R&R recommended that

the district court direct Pappas to show cause why he should not be barred from filing future
Complaints without leave of the court but left questions of notice and timing to the district court.
The district court thereafter adopted the R&R in its entirety, and ordered that “in the future,
Plaintiff is directed to SHOW CAUSE, in writing, as to why he should not be barred from filing
complaints without leave of court.” App’x at 10a.

Pappas has not responded to this direction,

nor has there been any other activity regarding it in the district court.
We do not interpret the district court’s show cause order as, in fact, imposing a filing
injunction.

Although the language of the district court’s order did not set a specific date by which

to respond, it is evident from the district court’s adoption of the R&R in its entirety that the district
court sought to provide Pappas an opportunity to be heard prior to imposing a filing injunction.
Accordingly, because the district court did not impose such an injunction, the issue is not ripe for
our review.

See United States v. Balon, 384 F.3d 38, 46 (2d Cir. 2004).

8

Case 19-3103, Document 117-1, 10/15/2020, 2952529, Page9 of 9

We have considered all of Pappas’s remaining arguments and find them to be without
merit.

Accordingly, we AFFIRM the judgment of the district court.

FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court

9

Case 19-3103, Document 117-2, 10/15/2020, 2952529, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
DEBRA ANN LIVINGSTON

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: October 15, 2020
Docket#: 19-3103cv
Short Title: Pappas v. Lorintz

DC Docket#: 18-cv-4199
DC Court: EDNY (CENTRAL
ISLIP)
DC Judge: Seybert
DC Judge: Tomlinson

BILL OF COSTS INSTRUCTIONS

The requirements for filing a bill of costs are set forth in FRAP 39. A form for filing a bill of
costs is on the Court's website.
The bill of costs must:
* be filed within 14 days after the entry of judgment;
* be verified;
* be served on all adversaries;
* not include charges for postage, delivery, service, overtime and the filers edits;
* identify the number of copies which comprise the printer's unit;
* include the printer's bills, which must state the minimum charge per printer's unit for a page, a
cover, foot lines by the line, and an index and table of cases by the page;
* state only the number of necessary copies inserted in enclosed form;
* state actual costs at rates not higher than those generally charged for printing services in New
York, New York; excessive charges are subject to reduction;
* be filed via CM/ECF or if counsel is exempted with the original and two copies.

Case 19-3103, Document 117-3, 10/15/2020, 2952529, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
DEBRA ANN LIVINGSTON

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: October 15, 2020
Docket#: 19-3103cv
Short Title: Pappas v. Lorintz '

DC Docket#: 18-cv-4199
DC Court: EDNY (CENTRAL
ISLIP)
DC Judge: Seybert
DC Judge: Tomlinson

VERIFIED ITEMIZED BILL OF COSTS

Counsel for

respectfully submits, pursuant to FRAP 39 (c) the within bill of costs and requests the Clerk to
prepare an itemized statement of costs taxed against the

and in favor of

for insertion in the mandate.
Docketing Fee
Costs of printing appendix (necessary copies
Costs of printing brief (necessary copies
Costs of printing reply brief (necessary copies

(VERIFICATION HERE)

Signature

Case 19-3103, Document 131, 12/09/2020, 2989827, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
9th day of December, two thousand twenty.

Anthony Pappas, for Congress, a political organization created under
Title 52 of the Federal Code and individually,
Plaintiff - Appellant.
ORDER

v.

Docket No: 19-3103

Joseph Lorintz, individually and as Supreme Court Judge of the State of
New York, Henry Kruman, Maria Pappas, TD Bank, N.A., State of
New York,
Defendants - Appellees.

Appellant, Anthony Pappas, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 1 of 36 PagelD #: 783

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
•X
ANTHONY PAPPAS FOR CONGRESS, a
political organization created under Title 52 of
the Federal Code, and ANTHONY PAPPAS,
individually,
Plaintiffs,
REPORT AND
RECOMMENDATION
-againstCV 18-4199 (JS) (AKT)
JOSEPH LORINTZ, individually and as Supreme
Court Judge of the State of New York, HENRY
KRUMAN, MARIA PAPPAS, TD Bank, N.A.,
and the STATE OF NEW YORK,
Defendants.
X
A. KATHLEEN TOMLINSON, Magistrate Judge:
I.

Preliminary Statement
Individual Plaintiff Anthony Pappas, proceeding pro se, (“Anthony Pappas,” or “Plaintiff

Pappas”), together with his political campaign organization “Anthony Pappas for Congress,”
(collectively, “Plaintiffs”), commenced this action asserting violations of federal law and
Anthony Pappas’ constitutional rights. See generally Plaintiffs’ Verified Complaint (“Compl.”)
[DE 1]. These alleged violations arise out of a lengthy and contentious divorce proceeding in
New York State Supreme Court between Anthony and Maria Pappas.
According to the Complaint, Defendants Joseph Lorintz, the New York State Supreme
Court Justice currently presiding over the divorce proceeding (“Justice Lorintz”), Maria Pappas
and her attorney in the divorce proceeding Henry Kruman (“Attorney Kruman”), TD Bank, N.A.
(“TD Bank”), and the State of New York (collectively, “Defendants”) violated Plaintiffs’ federal

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 2 of 36 PagelD #: 784

constitutional and statutory rights by way of their involvement in the divorce proceeding and
their attempts to enforce money judgments against Anthony Pappas in that matter. See generally
Pis.’ Compl. Significantly, Anthony Pappas commenced an action in this Court in 2013 against
two New York State Supreme Court Justices, a judicial hearing officer, Attorney Kruman, and
Maria Pappas for alleged constitutional violations arising out of the same divorce proceeding
(“Pappas F). On August 6, 2014, Judge Seybert granted several defendants’ motions to dismiss
the complaint in that matter, finding that (1) the court lacked subject matter jurisdiction pursuant
to the domestic relations exception to federal court jurisdiction, and (2) even assuming the Court
had jurisdiction, Pappas failed to state a claim upon which relief could be granted. See generally
Pappas v. Zimmerman, No. 13-CV-4883, 2014 WL 3890149 (E.D.N.Y. Aug. 6, 2014).
The following events transpired between the disposition of Pappas I and the filing of the
instant Complaint: (1) in 2017, Justice Lorintz became the presiding State Supreme Court
Justice in the divorce proceeding following Justice Zimmerman’s recusal, Compl.

21 (a)-(b);

(2) Anthony Pappas announced his candidacy for the United States Congress as a Republican
and appeared on the ballot in November 2018, id.

2; and (3) prior to the election, a restraint

was placed on Pappas’ campaign bank account in an attempt to enforce a previously entered
money judgment in the divorce proceeding. See id. f 21(c). The allegations and claims in the
instant action are primarily based on legal theories and arguments asserted unsuccessfully in
Pappas I, framed in the context of these recent events. Specifically, Anthony Pappas alleges
continued “bias” in the divorce proceeding, which resulted in money judgments against him, and
which, through enforcement of the judgments as well as through negative media attention,
contributed to his electoral loss in November 2018. See generally id. Within this framework,
the instant Complaint asserts claims for violation of Anthony Pappas’ rights under the First

2

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 3 of 36 PagelD #: 785

Amendment to the United States Constitution, his procedural and substantive due process rights,
his equal protection rights, and federal election law. See generally id.
On November 27, 2018, the New York State Attorney General’s Office, representing
Justice Lorintz and the State of New York, filed the first of the instant motions to dismiss
Plaintiffs’ Complaint, for lack of subject matter jurisdiction, pursuant to Federal Rule of Civil
Procedure 12(b)(1), as well as for a limited filing injunction. See generally New York State’s
Memorandum of Law in Support of its Motion to Dismiss (“State’s Mem.”) [DE 32-1]; see also
New York State’s Memorandum in Reply (“State’s Reply”) [DE 42], Several days later, on
November 30, 2018, TD Bank filed a motion to dismiss the claims against it for failure to state a
claim pursuant to Rule 12(b)(6). See generally TD Bank’s Memorandum in Support of its
Motion to Dismiss (“TD Bank’s Mem.”) [DE 33-1]; see also TD Bank’s Memorandum in Reply
(“TD Bank’s Reply”) [DE 40]. Also on November 30, 2018, Maria Pappas and her attorney
Henry Kruman filed a motion to dismiss the Complaint for failure to state a claim, pursuant to
Rule 12(b)(6), as well as for a limited filing injunction. See generally Henry Kruman and Maria
Pappas’ Memorandum of Law in Support of their Motion to Dismiss (“Kruman Mem.”)
[DE 34-2], On December 28, 2018, Plaintiffs filed opposition to the motions to dismiss and a
cross-motion to amend the Complaint “to add facts arising since its filing;” the opposition also
seeks “an order of partial summary judgment.” Plaintiffs’ Notice of Cross-Motion [DE 36]; see
Plaintiffs’ Memorandum of Law in Opposition to Defendants’ Motions to Dismiss and in
Support of the Cross-Motion (“Pis.’ Opp’n.”) [DE 38]; see also Pappas’ Declaration in Support
of the Opposition and Cross-Motion (“Pappas’ Deck”) [DE 37],
Judge Seybert referred the above pending motions to this Court on April 9, 2019 for a
Report and Recommendation as to whether the motions should be granted. See Electronic Order

3

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 4 of 36 PagelD #: 786

dated April 9, 2019. Having considered the arguments of the parties, including all of the written
submissions referenced here, and for the reasons set forth below, this Court respectfully
recommends to Judge Seybert that (1) the pending motions to dismiss be GRANTED, (2)
Plaintiffs’ cross-motion to amend the Complaint be DENIED, and (3) Anthony Pappas be
directed to show cause why a filing injunction should not be entered against him.
II.

Background
A.

Judge Seybert’s 2014 Decision in Pappas I

The Court begins by addressing Judge Seybert’s August 6, 2014 decision in Pappas /,
which granted several motions to dismiss Pappas’ claims. As Judge Seybert observed, Pappas I
involved
an underlying divorce proceeding commenced by M[aria] Pappas
against Plaintiff on December 8, 2004. . . . The Complaint alleges a
series of purported constitutional violations stemming from the
divorce proceedings. For example, Plaintiff alleges that M. Pappas'
attorney, defendant Kruman, asserted baseless accusations against
Plaintiff, allowed M. Pappas to testify to mistruths, and charged
exorbitant fees for which Plaintiff ultimately became responsible.
Pappas /, 2014 WL 3890149, at * 1. Anthony Pappas also brought claims against “Justice
Falanga, [Judicial Hearing Officer] Gartenstein, and Justice Zimmerman.. . . JHO Gartenstein
presided over certain aspects of the case until his recusal in 2010. Justice Falanga then presided
over the divorce proceedings until his retirement around December 2011. Justice Zimmerman
then succeeded Justice Falanga.” Id. (internal citations omitted). Pappas alleged bias against
him in the divorce proceeding, and, specifically, that “the Judicial Defendants adopted M[aria]
Pappas' recitation of the facts in various instances and generally favored M[aria] Pappas, placing
the ‘female litigant and her attorney in a win-win situation through never ending litigation.’” Id.

4

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 5 of 36 PagelD #: 787

Plaintiff Pappas also pointed to a “gag order” as further evidence of this bias. The “gag order”
was a directive from Justice Falanga, which stated as follows:
I am admonishing you right now, you are not to communicate with
anybody inside the court system, outside the court system, about
how you feel you were being treated or anything like that. If you feel
I am violating your right to free speech, you have the absolute right
to feel that way and do whatever you feel is appropriate. If I decide
to hold you in contempt, we'll cross that bridge when we come to it.
Do you understand?
Id. Anthony Pappas alleged that the bias he was subjected to throughout his divorce proceeding
and his general treatment during those proceedings violated his First Amendment rights, due
process rights, and equal protection rights. Id. at *2. He also argued that such conduct
constituted retaliation. Id.
After reviewing the alleged facts, Judge Seybert explained that the “domestic relations”
exception “divests the federal courts of power to issue divorce, alimony, and child custody
decrees,” and further applies to divest the court of subject matter jurisdiction where an action
“involves issues ‘directly related’ to the [divorce, alimony, or child custody] state court
proceedings.” Pappas /, 2014 WL 3890149, at *3-*4. As Judge Seybert stated, “the fact that
Plaintiff styles his Complaint in terms of constitutional issues is of no moment... . His
allegations would require this Court to become embroiled in the divorce proceedings and his
submissions make clear that he seeks to undo what has occurred with respect to his divorce.” Id.
at *4 (internal citations omitted). Accordingly, Judge Seybert concluded the court lacked subject
matter jurisdiction to entertain Anthony Pappas’ claims. Id. In addition to concluding that the
domestic relations exception deprived the court of subject matter jurisdiction, Judge Seybert
found that “Plaintiffs claims against the Judicial Defendants fail on the grounds of judicial
immunity and the Eleventh Amendment, and his claims against Kruman and M[aria] Pappas fail
because they are not state actors.” Id.
5

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 6 of 36 PagelD #: 788

Anthony Pappas’ claims were dismissed with prejudice and Pappas I was closed on
August 15, 2014. On August 20, 2014, Anthony Pappas filed a notice of appeal of Judge
Seybert’s decision granting the motions to dismiss. The United States Court of Appeals for the
Second Circuit issued its Mandate on January 13, 2015 denying and dismissing Pappas’ appeal
On the grounds that the appeal lacked an arguable basis in fact or law.
B.

Facts Alleged in Plaintiffs’ Initial Complaint Relative to the Instant Action

The Court next considers the facts alleged in Plaintiffs’ initial pleading in this action.
The Court accepts these allegations as true for purposes of the pending motions to dismiss.
Aegis Ins. Servs., Inc. v. 7 World Trade Co., L.P., 737 F.3d 166, 176 (2d Cir. 2013). Further,
pro se filings like Anthony Pappas’ Complaint are liberally construed to raise the strongest
arguments they suggest. McLeod v. Jewish Guildfor the Blind, 864 F.3d 154, 156 (2d Cir.
2017). The Court will not, however, recite the numerous conclusory assertions, legal arguments,
and ad hominem invective which permeate the pleadings, except where needed for illustration.
Anthony and Maria Pappas were married on July 25, 1982 and subsequently had three
children. Compl.

12. On December 8, 2004, Maria Pappas commenced an action for divorce

in New York State Supreme Court. Id. Recognizing Judge Seybert’s disposition of Pappas I on
the basis of the domestic relations exception, Anthony Pappas alleges that since Judge Seybert’s
2014 decision, “circumstances and events have arisen which take this complaint outside the
scope of the Domestic Relations Exemption, related abstention practices and preclusion rules
while necessitating emergency and long term relief sought here.” Id. 120. He claims that “[t]he
state divorce judge (Zimmerman) named in the 2013 federal case disqualified herself in March
2017 without motion or explanation . . . leaving the litigant subject to speculation regarding the
extent and duration of any undisclosed prejudice.” Id. ][ 21(a). The Complaint states that “Judge

6

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 7 of 36 PagelD #: 789

Zimmerman’s replacement, defendant Judge Joseph Lorintz, has continued the systematic
prejudice (or bias) against Pappas in retaliation for his ongoing criticisms of divorce court.” Id. 1f
21(b). Specifically, Anthony Pappas asserts that Justice Lorintz has “ignored requests for an
explanation or justification for money judgments that remain in effect despite funds restrained,
seized or readily available for immediate satisfaction,” and has “restrained monies needed for
personal living expenses and lawyer fees.” Id. Plaintiff Pappas claims that “defendant Lortintz
has entered orders favoring defendants [Maria] Pappas and Kruman while denying motions to
lift, reduce or modify excessive, punitive and retaliatory orders against Pappas.” Id. ^ 21(c).
Relatedly, the Complaint states that “[t]his malicious or reckless process has now led to a
restraint upon the candidate’s separate bank account at the defendant TD Bank.” Id.
“Among other retaliatory misconduct” of which Plaintiff Pappas complains is the “2011
gag order issued by Judge Anthony Falanga which remains in effect.” Compl. f 21(d). Pappas
alleges that when he decided to run for Congress, his divorce was placed under public scrutiny
and he “was subjected to media inquiries” regarding this “defamatory” order and other aspects of
his divorce proceeding Id. Additionally, the Complaint states that by refusing to grant Pappas’
motions to vacate the 2011 gag order, Justice Lorintz has placed him and his campaign staff at
risk of arrest and/or confinement for contempt, in addition to chilling free speech. Id.

21 (h)-(i).

Anthony Pappas summarizes his claims in the following manner. As to his “First Cause
of Action: First Amendment,” Pappas contends that
the defendants have violated [his] rights of free speech and court
access under the First Amendment to wit: 1) through imposition of
a prior restraint by defendant Judge Anthony Falanga on January 19,
2011 which was neither modified nor vacated to the present day, and
2) punitive measures undertaken on a variety of pretexts for
offensive expressions made by plaintiff Pappas from time to time
during the course of this maliciously protracted divorce case.

7

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 8 of 36 PagelD #: 790

Compl. 124. As to his “Second Cause of Action: Election Law,” Pappas states that
[ujnder Title 52 of the United States Code (Election Law), the
Federal Election Commission has been granted exclusive
jurisdiction to decide campaign funding and expenditure violations.
However such grant of authority does not extend to broader civil
rights violations of the kind at issue here or involuntary applications
of donated campaign funds to the personal use of a divorce lawyer
and ex spouse.
Id. T| 28. Plaintiff thus alleges that the restraint on his campaign account supports a claim for
“violation of federal election law.” Id. ^ 29. As to his “Third Cause of Action: Due Process,”
Plaintiff Pappas states that he was deprived of both substantive and procedural due process in his
divorce proceeding because he “was denied his right to a rational, orderly and timely court
proceeding before a neutral and detached magistrate or judge. This bias inflicted against plaintiff
was both systematic in the [sic] New York’s divorce courts and individually among the presiding
judge named therein.” Id. 131. As to his “Fourth Cause of Action: Equal Protection,” Pappas
contends that “[t]he matrimonial section of New York’s court system promotes inherently biased
and discriminatory practices against husbands, fathers and male litigants. Women counterparts
are encouraged to file false petitions under oath under a ‘better safe than sorry’ doctrine of law in
matters of domestic violence.” Id.

35. He thus claims his equal protection rights were violated

by operation of New York matrimonial law and its application in the state court proceeding.1 Id.
C.

Relevant Procedural History

As noted, Pappas I was closed on August 15, 2014. The Second Circuit denied Pappas’
appeal of Judge Seybert’s 2014 decision dismissing his claims on January 13, 2015. Prior to
commencing the instant action, Anthony Pappas moved pursuant to N.Y. C.P.L.R. Article 78 to

i

The Complaint also lists a “Fifth Cause of Action” - a claim for “Declaratory and
Injunctive Relief.” Compl. fflf 35-36.
8

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 9 of 36 PagelD #: 791

compel Justice Lorintz to vacate the 2011 gag order in the Pappas’ underlying divorce
proceeding. See DE 34-9. The New York State Supreme Court, Appellate Division, Second
Department denied Plaintiff Pappas’ petition in an Order dated November 1, 2017. See id.
Anthony Pappas filed the Complaint in this action on July 24, 2018. See DE 1. That
same day, he filed an unsigned Order to Show Cause and supporting affidavit which sought the
restraint of “all enforcement of orders notices, executions and information subpoenas placed
upon a campaign account in TD Bank” and the lifting of the 2011 gag order. See DE 3. On
August 14, 2018, TD Bank filed a response to the Order to Show Cause, taking no position as to
the relief Pappas sought. See DE 16. Attorney Kruman filed opposition to Plaintiffs’ Order to
Show Cause on August 17, 2018, see DE 20, and the State of New York filed its opposition on
August 27, 2018. See DE 26. Judge Seybert declined to sign Plaintiffs’ Order to Show Cause on
September 4, 2018, and otherwise denied the relief Pappas sought. See Electronic Order dated
September 4, 2018. Judge Seybert ruled that the Anthony Pappas could not challenge the
restraining notice in federal court, but rather must seek such relief in New York State Supreme
Court, the court which issued the notice. See id. Judge Seybert also noted that “the Court has
serious concerns regarding the existence of subject matter jurisdiction over this action, and as a
result, finds that Plaintiff has not demonstrated a likelihood of success or sufficiently serious
questions going to the merits of his claims.”2 Id.

2 Anthony Pappas subsequently filed a petition of mandamus with the United States
Court of Appeals for the Second Circuit. On January 17, 2019, the Second Circuit issued its
Mandate denying Pappas’ petition because he failed to “demonstrate that exceptional
circumstances warrant the requested relief.” DE 41. Pappas then filed a petition for a writ of
certiorari with the United States Supreme Court on February 27, 2019, seeking review of the
Second Circuit’s denial of his mandamus petition. On May 20, 2019, the Supreme Court denied
his petition.
9

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 10 of 36 PagelD #: 792

On October 30, 2018, Judge Seybert granted Defendants in this action leave to move to
dismiss the Complaint. See Electronic Order dated October 30, 2018. On November 1, 2018,
Magistrate Judge Brown recused himself and the case was reassigned to this Court. See DE 31.
The State of New York, TD Bank, and Attorney Kruman filed their motions to dismiss on
between November 27 and November 30, 2018. See DE 32-34. In response to the several
motions to dismiss, Plaintiff Pappas filed an opposition and cross-motion to amend his
Complaint on December 28, 2018, “to add facts arising since its filing.” DE 36. The opposition
also seeks “an order of partial summary judgment.” Id. TD Bank and the State of New York
subsequently filed reply memoranda in further support of their motions to dismiss. See DE 40,
42.
The pending motions were referred by Judge Seybert to this Court for a Report and
Recommendation as to whether the motions should be granted on April 9, 2019. See Electronic
Order dated April 9, 2019.
III.

Arguments of the Parties
The Court briefly summarizes the contentions of the parties before addressing the merits

of their respective arguments.
A.

The State of New York

In its motion, the State of New York argues that res judicata binds Anthony Pappas to
Judge Seybert’s determination in Pappas /, namely, that this Court lacks subject matter
jurisdiction to entertain his claims pursuant to the domestic relations exception to federal court
jurisdiction. See State’s Mem. at 4-5. No intervening action or event between dismissal of
Pappas I and the filing of the instant Complaint is sufficient to alter this conclusion according to
the State. Likewise, the State contends that Judge Seybert’s other rulings - i.e., that even if the

10

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 11 of 36 PagelD #: 793

Court had subject matter jurisdiction over Plaintiff Pappas’ claims, various forms of immunity
preclude the relief he seeks - are similarly applicable to the instant litigation. See id. at 8. The
State further seeks a limited filing injunction, notwithstanding the absence of subject matter
jurisdiction. See id. at 9-13.
In his reply papers, counsel for the State of New York makes several additional
arguments: (1) Justice Lorintz was not personally involved in the enforcement action of the
money judgment and therefore cannot be held liable under Section 1983; (2) the federal election
law does not afford Anthony Pappas a private right of action; and (3) any potential remedies
related to the purported “gag order” lie in New York State Supreme Court, not this Court. See
generally State’s Reply. The State also maintains that Plaintiffs’ proposed Amended Complaint
would be futile and that his motion to amend should therefore be denied. See generally id.
B.

TD Bank

In its motion to dismiss, TD Bank first asserts that under New York Law, it is a custodian
of accounts and is required by law to comply with a judicial restraining notice. As a result, on
the facts here, its actions were proper and no claim may lie against it. See TD Bank’s Mem. at 56. TD Bank next argues that because it is a private entity rather than a state actor, Plaintiffs’
Section 1983 claims cannot lie against it. See id. at 6-7. As a third argument, TD Bank
contends, like the State of New York, that Plaintiffs’ federal election law claims are not
authorized by any private right of action. See id. at 7-8. Finally, TD Bank argues that Plaintiffs’
purported breach of contract claim, along with any negligence claim Plaintiff Pappas may be
attempting to raise, is barred by the Account Agreement, which obliges TD Bank to comply with
any legitimate judicial restraint. See id. at 8-10.

11

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 12 of 36 PagelD #: 794

In addition to elaborating further on the above arguments, TD Bank asserts in its reply
memorandum contends that Plaintiffs request to amend the Complaint should be denied because
any such amendment would be futile. See TD Bank’s Reply at 8-10. TD Bank also contends
that Plaintiffs’ request for “partial summary judgment” should be denied as moot, premature, and
procedurally improper. See id. at 10.
C.

Maria Pappas and Attorney Kruman

Although Defendants Maria Pappas and her Attorney Henry Kruman purport to seek
dismissal of the Complaint pursuant to Rule 12(b)(6) for failure to state claim, their first
argument is that the Court lacks subject matter jurisdiction based on Judge Seybert’s decision in
Pappas I. See Kruman Mem. at 4-5. The Court therefore construes this portion of the motion to
be brought pursuant to Rule 12(b)(1). These Defendants next argue that any Section 1983 claim
is not actionable against them because they are not state actors. See id. at 6-9. Maria Pappas and
Attorney Kruman also claim, like the other Defendants, that no private right of action exists to
sustain Plaintiffs’ election law claims. See id. at 9.
In support of their motion for a limited filing injunction, these Defendants state that
Anthony Pappas “has engaged in vexatious and repetitive litigation repeatedly raising and re­
raising issues determined in prior proceedings, including the application of the domestic relations
exception in Pappas I.” Kruman Mem. at 10. They claim that there is “no doubt a monetary
sanction in this action would be inadequate,” since “Mrs. Pappas has already been awarded
money judgments which remain unsatisfied.” Id.
D.

Plaintiffs’ Opposition and “Cross-Motion”

In opposition to the several motions to dismiss, Plaintiffs first recite what they entitle a
“Counter-Statement of Facts” in which they repeat many of the same factual assertions raised in

12

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 13 of 36 PagelD #: 795

the Complaint. See Pis.’ Opp’n. at 1-6. This appears to be Anthony Pappas’ attempt to re­
characterize what he sees as Defendants’ mischaracterization of the allegations in the pleadings.
In the “Argument” section of the opposition, Plaintiffs’ primary assertions can be distilled to the
following: (1) a second levy on the campaign account was made after this action was
commenced; therefore, (although it is by no means clear) leave to amend should be granted; (2)
an implied private right of action exists in the federal election law which authorizes the election
law claims; and (3) the domestic relations exception does not apply to this case. See id. at 6-12.
As to this last point, the crux of Plaintiffs’ argument is that “jurisdiction in state court is not
being exercised in good faith.” Id. at 12.
Plaintiffs’ opposition papers are docketed as a cross-motion to amend.3 See DE 36, 38.
In the “Notice of Cross Motion,” docketed at DE 36, Plaintiff Pappas states he will seek “an
order granting leave to amend the Verified Complaint to add facts arising since its filing” and
“an order of partial summary judgment.” DE 36. Notwithstanding these characterizations, no
proposed amended complaint was filed with Plaintiffs’ papers.

3 The Court notes that Plaintiff Pappas submitted a letter dated June 27, 2019 with what
appears to be news articles from several internet sites regarding criminal charges brought against
a congressional candidate in California for allegedly using campaign funds to finance
extramarital affairs. See DE 45. According to Mr. Pappas, this “new development supports [his]
contention” as to how campaign funds can properly be used, contending that the seizure of some
of his campaign funds by the judge presiding over his divorce proceeding was improper. The
Court points out that (1) Plaintiff Pappas did not seek an authorization to submit this material
after the motions here were already fully briefed; (2) the factual underpinnings of the case in
California are clearly distinguishable from the facts in this case; (3) the submission does not
contain any ruling or decision from a federal court in California for the Court to assess; and (4)
this Court is not bound by a decision from another federal district court even if one existed here.
The Court finds the submission is not relevant to this case and provides no support for the
arguments asserted in this matter by the Plaintiffs.
13

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 14 of 36 PagelD #: 796

IV.

Discussion
Pro se filings like Plaintiffs’ Complaint are to be liberally construed. McLeod, 864 F.3d

at 156; Shin v. Queens Hosp. Ctr. in Jamaica, No. 14-CV-7237, 2014 WL 7422664, at *3
(E.D.N.Y. Dec. 31, 2014). “[A] pro se complaint, however inartfully pleaded, must be held to
less stringent standards than formal pleadings drafted by lawyers.” Erickson v. Pardus, 551 U.S.
89, 94 (2007) (quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976)). The Court must therefore
“read the pleadings of a pro se plaintiff liberally and interpret them ‘to raise the strongest
arguments that they suggest.’” McPherson v. Coombe, 174 F.3d 276, 280 (2d Cir. 1999)
(quoting Burgos v. Hopkins, 14 F.3d 878, 890 (2d Cir. 1994)); Bertin v. United States, 478 F.3d
489, 491 (2d Cir. 2007). Pro se status, however, “does not exempt a party from compliance with
relevant rules of procedural and substantive law.” Lomax v. Aegis Funding Corp., No. 9-2321,
2010 WL 1633440, at *2 (E.D.N.Y. Apr. 19, 2010) (quoting Iwachiw v. N.Y. City Bd. ofEduc.,
194 F. Supp. 2d 194, 202 (E.D.N.Y. 2002)); Likewise, “mere conclusions of law or unwarranted
deductions need not be accepted” by the Court. Alston v. Sebelius, No. 13-CV-4537, 2014 WL
4374644, at *5 (E.D.N.Y. Sept. 2, 2014).
That being said, the general standards of review under Rule 12(b)(1) and 12(b)(6) remain
applicable. Where, as here, defendants move to dismiss a complaint based on Rule 12(b)(1) as
well as other grounds, “the court should consider the Rule 12(b)(1) challenge first since if it must
dismiss the complaint for lack of subject matter jurisdiction, the accompanying defenses and
objections become moot and do not need to be determined.” Rhulen Agency, Inc. v. Alabama
Ins. Guar. Ass'n, 896 F. 2d 674, 678 (2d Cir. 1990) (quoting 5 C. Wright and A. Miller, Federal
Practice and Procedure, § 1350, p. 548 (1969)); see Thompson v. Ocwen Fin. Corp., No. 3:16cv-01606, 2018 WL 513720, at *2 (D. Conn. Jan. 23, 2018) (explaining it is well established

14

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 15 of 36 PagelD #: 797

that “federal courts should ordinarily resolve any doubts about the existence of federal subject
matter jurisdiction prior to considering the merits of a complaint”) (citing Rhulen, 896 F. 2d at
678); Calverton Hills Homeowners Assn., Inc. v. Nugent Bldg. Corp., 2:17-CV-03916, 2017 WL
6598520, at *4 (E.D.N.Y. Dec. 26, 2017) (same). The Court will therefore begin its analysis by
addressing the argument raised by the Defendants that the Court lacks subject matter jurisdiction
to entertain Plaintiffs’ claims.
A.

Subject Matter Jurisdiction
1.

Standard of Review

“A case is properly dismissed for lack of subject matter jurisdiction under Rule 12(b)(1)
when the district court lacks the statutory or constitutional power to adjudicate it.” Makarova v.
United States, 201 F.3d 110, 113 (2d Cir. 2000) (citing Fed. R. Civ. P. 12(b)(1)). “The standard
of review for a motion to dismiss under Rule 12(b)(1) for lack of subject matter jurisdiction and
under 12(b)(6) for failure to state a claim are substantively identical.” Davis v. JP Morgan
Chase Bank, No. 14-CV-6263, 2016 WL 1267800, at *3 (S.D.N.Y. Mar. 30, 2016). Unlike the
resolution of a Rule 12(b)(6) motion to dismiss, however, a court resolving a Rule 12(b)(1)
motion to dismiss may consider evidence outside the pleadings. Makarova, 201 F.3d at 113
(citing Kamen v. American Tel. & Tel. Co., 791 F.2d 1006, 1011 (2d Cir.1986)). Moreover, “[a]
plaintiff asserting subject matter jurisdiction has the burden of proving by a preponderance of the
evidence that it exists.” Makarova, 201 F.3d at 113 (citing Malik v. Meissner, 82 F.3d 560, 562
(2d Cir. 1996)); Parker-Leon v. Middle Vill. Preparatory Charter Sch., No. 17-CV-4548, 2019
WL 2394211, at *2 (E.D.N.Y. June 6, 2019) (explaining that “jurisdiction must be shown
affirmatively, and that showing is not made by drawing from the pleadings inferences favorable
to the party asserting it”) (quoting Shipping Fin. Servs. Corp. v. Drakos, 140 F.3d 129, 131 (2d

15

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 16 of 36 PagelD #: 798

Cir. 1998)); Sobel v. Prudenti, 25 F. Supp. 3d 340, 352 (E.D.N.Y. 2014) (“In contrast to the
standard for a motion to dismiss for failure to state a claim under Rule 12(b)(6), a plaintiff
asserting subject matter jurisdiction has the burden of proving by a preponderance of the
evidence that it exists.”).
2.

Res Judicata: Claim & Issue Preclusion
a.

Legal Principles

The first step in the subject matter jurisdiction analysis requires the Court to determine
whether the principles of res judicata bar Plaintiffs’ claims in the instant action based on Judge
Seybert’s determination in Pappas I that subject matter jurisdiction was lacking. See George v.
Storage Am., No. 13 CIV. 9226, 2014 WL 1492484, at *3 (S.D.N.Y. Mar. 6, 2014) (“Because
another court has already addressed the issue of subject matter jurisdiction in a nearly identical
Complaint, I first consider whether res judicata bars reconsideration of the issue and requires
dismissal for lack of jurisdiction.”), objections overruled, No. 13 CIV. 9226, 2014 WL 1494116
(S.D.N.Y. Apr. 16, 2014). “The federal common law doctrine of res judicata incorporates two
separate types of preclusion: claim preclusion and issue preclusion.” Bank v. Spark Energy
Holdings, LLC, No. 13-CV-6130, 2014 WL 2805114, at *3 (E.D.N.Y. June 20, 2014)
“Under the doctrine of res judicata, otherwise known as claim preclusion, ‘a final judgment on
the merits of an action precludes the parties or their privies from relitigating issues that were or
could have been raised in that action.’” Umar Oriental Rugs, Inc. v. Carlson & Carlson, Inc.
757 F. Supp. 2d 218, 224 (E.D.N.Y. 2010) (emphasis in original) (quoting Flaherty v. Lang, 199
F.3d 607, 612 (2d Cir. 1999)). “Issue preclusion, in contrast, bars ‘successive litigation of an
issue of fact or law actually litigated and resolved in a valid court determination essential to the

16

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 17 of 36 PagelD #: 799

prior judgment,’ even if the issue recurs in the context of a different claim.” Wyly v. Weiss, 697
F.3d 131, 140 (2d Cir. 2012) (quoting New Hampshire v. Maine, 532 U.S. 742, 748-49 (2001)).
“It has long been the rule that principles of res judicata apply to jurisdictional
determinations—both subject matter and personal.” Corbett v. MacDonald Moving Servs., Inc.,
124 F.3d 82, 89 (2d Cir. 1997) (quoting Ins. Corp. ofIreland v. Compagnie des Bauxites de
Guinee, 456 U.S. 694, 702 n.9 (1982)); see Stone v. Williams, 970 F.2d 1043, 1057 (2d Cir.
1992) (observing that “principles of preclusion apply equally to jurisdictional matters”). While a
dismissal for lack of subject matter jurisdiction is generally not considered a dismissal “on the
merits,” and is therefore not accorded res judicata effect, Clarex Ltd. v. Natixis Securities
America LLC, No. 12 Civ. 722, 2012 WL 4849146, at *9 (S.D.N.Y. Oct. 12, 2012); Carruthers
v. Flaum, 388 F. Supp. 2d 360, 378 (S.D.N.Y. 2005), “a finding of lack of subject matter
jurisdiction is res judicata as to that particular issue in subsequent actions between the parties.”
George, 2014 WL 1492484, at *3 (quoting Barclay's Ice Cream Co. v. Local No. 757 ofIce
Cream Drivers & Employers Union, No. 79 Civ. 1611, 1979 WL 1710, at *2 (S.D.N.Y. Sept. 7,
1979)).
In order for claim preclusion to apply, a defendant must show that “(1) the previous
action involved an adjudication on the merits; (2) the previous action involved the [parties] or
those in privity with them; [and] (3) the claims asserted in the subsequent action were, or could
have been, raised in the prior action.” Monahan v. N.Y. City Dep't of Corr., 214 F.3d 275
284-85 (2d Cir. 2000) (citing Allen v. McCurry, 449 U.S. 90, 94 (1980)); Koenig v. City of New
Haven, No. 16-CV-514, 2017 WL 631190, at *2 (D. Conn. Feb. 15, 2017). By contrast, “[i]n
order to invoke the doctrine of issue preclusion, defendants must establish that ‘(1) the identical
issue was raised in a previous proceeding; (2) the issue was actually litigated and decided in the

17

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 18 of 36 Page ID #: 800

previous proceeding; (3) the party had a full and fair opportunity to litigate the issue; and (4) the
resolution of the issue was necessary to support a valid and final judgment on the merits.’”
Bank, 2014 WL 2805114, at *4 (quoting Uzdavines v. Weeks Marine, Inc., 418 F.3d 138, 146 (2d
Cir. 2005)).
b.

Application to the Facts

Here, the instant action does not involve the same parties as Pappas I, and claim
preclusion is therefore inapplicable. Similarly, not all of the claims asserted in the instant action
could have been asserted in Pappas I. In particular, Plaintiffs’ claims in connection with the
campaign account could only have been raised after the account was opened in connection with
Anthony Pappas’ 2018 congressional campaign. Given the information provided by the parties,
the Court concludes the account was opened after Judge Seybert issued her decision in Pappas I
on August 6, 2014. Id.
The doctrine of issue preclusion presents a different result in the instant circumstances.
As noted previously, “[t]he doctrine of issue preclusion precludes relitigation of issues
determined in an earlier ruling on a jurisdictional question.” O’Callaghan v. New York Stock
Exch., No. 12 CIV. 7247, 2013 WL 3984887, at *10 (S.D.N.Y. Aug. 2, 2013), affd, 563 Fed.
App'x 11 (2d Cir. 2014). A previous jurisdictional ruling has res judicata effect under the
doctrine of issue preclusion “only if the identical jurisdictional issue is presented in the
subsequent case.” Bank, 2014 WL 2805114, at *6; CITBank, N.A. v. Jach, No. 15-CV-5814,
2019 WL 1383850, at *3 (E.D.N.Y. Mar. 27, 2019). Where the jurisdictional issue is identical
and is litigated in a manner affording the party asserting jurisdiction a full and fair opportunity to
be heard, the elements of issue preclusion have been satisfied. See Bank, 2014 WL 2805114, at
*4. As explained below, the Court determines that the elements of issue preclusion have been

18

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 19 of 36 PagelD #: 801

satisfied here. As a result, the instant action is bound by Judge Seybert’s determination in
Pappas I that the Court lacks subject matter jurisdiction to entertain Plaintiffs’ claims pursuant to
the domestic relations exception.
First, the Court looks to the precise contours of the jurisdictional issues presented in both
Pappas I and the instant action, which requires a review of the parties and claims in both actions.
In Pappas I, Anthony Pappas individually raised the following causes of action: (1) violation of
his First Amendment free speech rights against judicial defendants State Supreme Court Justice
Hope Schwartz Zimmerman, State Supreme Court Justice Anthony Falanga, and Judicial
Hearing Officer Stanley Gartenstein “through the imposition of a prior restraint by defendant
Judge Anthony Falanga on January 19, 2011 which was neither modified nor vacated to the
present day;” (2) “retaliation” against the same judicial defendants as well as Maria Pappas and
Attorney Kruman (i.e., all defendants), acting in concert; (3) violation of his due process rights
stemming from the defendants’ failure to provide him “a rational, orderly and timely court
proceeding before a neutral and detached” judge in connection with his divorce; and (4) violation
of his equal protection rights because the state court system allegedly favors female litigants over
male litigants. Pappas /, 2014 WL 3890149, at *2. Anthony Pappas also sought declaratory and
injunctive relief. Id. As noted, the parties in Pappas I were Pappas himself individually, three
state court judicial defendants, Maria Pappas, and Attorney Kruman. See generally id.
In the instant action, Plaintiffs (now Pappas individually and his campaign organization)
assert the following causes of action: (1) violation of Anthony Pappas’ First Amendment free
speech rights “through imposition of a prior restraint by defendant Judge Anthony Falanga4 on

4 The Court notes that “Judge Anthony Falanga” is not named as a defendant in the
instant action.
19

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 20 of 36 PagelD #: 802

January 19, 2011, 5? a which was neither modified nor vacated to the present day,” and other bases
associated with with Pappas’ divorce proceeding; (2) violation of federal election law stemming
from the restraint on Anthony Pappas’ campaign bank account, presumably against all
Defendants; (3) violation of Anthony Pappas’ due process rights stemming from the Defendants’
failure to provide him “a rational, orderly and timely court proceeding before a neutral and
detached” judge in connection with his divorce; and (4) violation of Anthony Pappas’ equal
protection rights in that “[t]he matrimonial section of New York’s court system promotes
inherently biased and discriminatory practices against husbands, fathers and male litigants.”
Compl.

24-35. As in Pappas I, Plaintiffs here seek declaratory and injunctive relief. See id.

H 35-36. With respect to the parties, in this action Anthony Pappas has added his campaign
organization as a plaintiff, substituted State Supreme Court Justice Joseph Lorintz for the three
judicial defendants in Pappas I, and added TD Bank as a defendant, while retaining Maria
Pappas and Attorney Kruman as defendants. See generally Compl.
Comparing Pappas I and this action, the Court finds that notwithstanding (i) the addition
of Anthony Pappas for Congress (an organization presumably controlled by Pappas himself) as a
plaintiff, (ii) the substitution of a single judicial defendant for three judicial defendants, (iii) the
addition of TD Bank as a defendant, and (iv) the substitution of a claim of “retaliation” for a
purported claim under the federal election law as the second cause of action, the same
jurisdictional issue that was presented to and decided by Judge Seybert in Pappas I presents
itself here. Specifically, the gravamen of the current lawsuit is Anthony Pappas’ contention that
his rights have been violated in the state court divorce proceeding. Based on that contention, the
instant suit is “directly related” to that proceeding such that, like Pappas I, it “invites the federal
court to ‘re-examine and re-interpret’ the evidence” in that matter. Pappas I, 2014 WL 3890149,

20

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 21 of 36 PagelD #: 803

at *4 (quoting Schottel v. Kutba, No. 06-CV-1577, 2009 WL 230106, at *1 (2d Cir. 2009) and
McArthur v. Bell, 788 F.Supp. 706, 709 (E.D.N.Y. 1992)). This conclusion is self-evident from
the Complaint’s first, third, and fourth causes of action: they are identical to the first, third, and
fourth causes of action in Pappas /, often phrased verbatim. The fact that the parties are slightly
different does not alter the Court’s conclusion. These claims remain asserted, as they were in
Pappas /, against the judicial system and at least one of its officers, as well as against Maria
Pappas and Attorney Kruman, for alleged injuries suffered by Anthony Pappas stemming from
his divorce proceeding. Because resolution of these claims “would require this Court to become
embroiled in the divorce proceedings and his submissions make clear that [Anthony Pappas]
seeks to undo what has occurred with respect to his divorce,” Pappas /, 2014 WL 3890149, at
*4, the claims present the same jurisdictional issue decided by Judge Seybert.
Anthony Pappas’ substitution of a claim of “retaliation” for a claim purportedly brought
pursuant to federal election law does not fundamentally alter the nature of the jurisdictional issue
before the Court here. With respect to his federal election law claim, Pappas raises the following
allegations: (1) Justice Lorintz “acted under color of state law and exceed his authority to impair
rights secured to the plaintiff under the United States Constitution and federal Election Law,”
Compl. 16; (2) Attorney Kruman and Maria Pappas acted in concert with other defendants “to
impair rights secured to the plaintiff under the United States Constitution and Election Law,” id.
7, 8; (3) “[u]nder Title 52 of the United States Code (Election Law), the Federal Election
Commission has been granted exclusive jurisdiction to decide campaign funding and expenditure
violations. However, such express grant of authority does not extend to . . . involuntary
applications of donated campaign funds to the personal use of a divorce lawyer and ex-spouse,”
id. f 28; and (4) because “[n]o case or precedent has been uncovered to provide independent

21

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 22 of 36 PagelD #: 804

guidance” as to whether the Federal Election Commission has “express or implied authority to
represent a victimized divorce litigant or to otherwise act upon state judges engaged in divorced
proceedings .. . such federal jurisdiction, jurisdictional disputes and remedies can only be
decided by this Court.” Id. f 29. In the Court’s view, these allegations make clear that Anthony
Pappas’ grievances, although framed in terms of “the federal election law,” are, in reality,
another form of his grievances against what he perceives to be a biased state court system and a
flawed divorce proceeding outcome. As such, his “federal election law” cause of action is part
and parcel of his other three claims and presents no distinct jurisdictional issue for this Court to
decide. See Pis.’ Opp’n. at 5 (asserting that his electoral loss was due to the “the maliciously
protracted divorce” proceedings).
Similarly, the addition of TD Bank as a defendant does not fundamentally alter the
jurisdictional issue presented by the instant litigation. There are only a few references to TD
Bank in Plaintiffs’ Complaint. The only two references which shed any light on the purported
connection between TD Bank and Plaintiffs’ claims are that (1) Attorney Kruman “caused a
property execution to be served on TD Bank, N.A., which thereby restrained the campaign
account of said organization,” Compl. ^ 7; and (2) “Judge Zimmerman’s replacement, defendant
Judge Joseph Lorintz, has continued the systematic prejudice (or bias) against Pappas in
retaliation for his ongoing criticisms of divorce court. . . . This malicious or reckless process has
now led to a restraint upon the candidate’s separate bank account at the defendant TD Bank
....” Id. Tff 21(b)-(c). These allegations reflect that, similar to the purported “federal election
law” claim, the conduct of TD Bank of which Anthony Pappas complains is the direct result and
consequence of the Pappas’ divorce proceedings. Inclusion of TD Bank as an additional
defendant, therefore, does not alter the jurisdictional issue before the Court.

22

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 23 of 36 PagelD #: 805

Having determined that the same jurisdictional issue presented to and decided by Judge
Seybert in Pappas I is presented here, the Court further finds that Anthony Pappas had a full and
fair opportunity to litigate this issue in Pappas I. Moreover, it is evident that “resolution of the
[jurisdictional] issue was necessary to support a valid and final judgment” in Pappas I. Bank,
2014 WL 2805114, at *4. Accordingly, the elements of issue preclusion have been satisfied.
See id. As a result, Plaintiffs - and this Court - are bound by Judge Seybert’s determination in
Pappas I that this Court lacks subject matter jurisdiction to entertain Plaintiffs’ claims pursuant
to the domestic relations exemption. See, e.g., Hughley v. United States, No. 11 CIV. 3805, 2011
WL 6057743, at *2 (S.D.N.Y. Dec. 2, 2011) (explaining that where a prior judgment “precludes
any relitigation of the threshold issues of justiciability and subject matter jurisdiction previously
determined by the Court,” such “jurisdictional defects bar Petitioner's claims in the Amended
Complaint”).
3.

The Domestic Relations Exception in the First Instance

Even assuming that issue preclusion did not prevent relitigation of the issue of subject
matter jurisdiction in the instant suit, the Court would be bound to determine in the first instance
that, for substantially the same reasons as explained by Judge Seybert in Pappas I, the domestic
relations exception deprives this Court of subject matter jurisdiction to consider Plaintiffs’
claims.
“The domestic relations exception springs from the Supreme Court's century-and-aquarter-old recognition that ‘[t]he whole subject of the domestic relations of husband and wife,
parent and child, belongs to the laws of the states, and not to the laws of the United States[.]]”
Tait v. Powell, 241 F. Supp. 3d 372, 376 (E.D.N.Y. 2017) (quoting In reBurrus, 136 U.S. 586,
593-94 (1890)). Although the exception is narrow, it is “understood to grant to federal courts

23

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 24 of 36 PagelD #: 806

the ‘discretion to abstain from exercising jurisdiction over issues on the verge of being
matrimonial in nature as long as full and fair adjudication is available in state courts.” Tait, 241
F. Supp. 3d at 276 (quoting Fischer v. Clark, No. 08-CV-3807, 2009 WL 3063313, at *2
(E.D.N.Y. Sept. 24, 2009)).
As the Court has already observed when comparing the instant action with Pappas I,
Anthony Pappas’ grievances in the instant litigation at their core arise from Pappas’
dissatisfaction with his treatment in the state court divorce proceeding, both by the judicial
system and its officers, as well as by Maria Pappas and Attorney Kruman. “[A] plaintiff may not
obtain federal court jurisdiction merely by rewriting a domestic dispute as a different type of
action.” Junodv. CPS of Onondaga Cty., No. 18-CV-1424, 2019 WL 609010, at *3 (N.D.N.Y.
Jan. 2, 2019) report and recommendation adopted sub nom. Junod v. CPS of Onondaga Cty.
New York, No. 18-CV-1424, 2019 WL 587516 (N.D.N.Y. Feb. 12, 2019). “[CJourts in the
Second Circuit have abstained from controversies that, regardless of how a plaintiff characterizes
them, ‘begin and end in a domestic dispute.’” Deem v. DiMella-Deem, No. 18-CV-l 1889, 2019
WL 1958107, at *12 (S.D.N.Y. May 2, 2019) (quoting Tait, 241 F. Supp. 3d at 377). It is
therefore of little consequence that Plaintiff Pappas’ has attempted to bring claims under the
federal election law and further has attempted to sue TD Bank, a party not directly involved with
the divorce proceeding. Rather, as the language of the Complaint demonstrates, this suit is part
and parcel of the state court divorce proceeding, and the allegations involving Anthony Pappas’
electoral campaign and the campaign’s bank account are direct consequences of the divorce
proceeding. Pappas confirms this conclusion in his opposition papers when he states, “[i]n short,
the maliciously protracted divorce proceeding impaired plaintiffs participation in the federal

24

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 25 of 36 PagelD #: 807

election process while guaranteeing his opponent’s victory on Election Day, November 6, 2018.”
Pis.’ Opp’n. at 5.
Therefore, even if this Court were to determine that the precise jurisdictional issue
presented here was not identical to that before Judge Seybert in Pappas I - and, as a result, issue
preclusion would not require adherence to Judge Seybert’s determination that the domestic
relations exception deprived the Court of subject matter jurisdiction - this Court would
ultimately reach the same conclusion based on the Complaint in this action.
Based on the foregoing analysis, the Court respectfully recommends to Judge Seybert
that the Defendants’ motions to dismiss the Complaint for lack of subject matter jurisdiction be
GRANTED.
B.

Failure to State a Claim

Even assuming the Court had subject matter jurisdiction, the instant Complaint fails to
state a viable claim for relief against any defendant, for several reasons.
1.

Standard ofReview

In reviewing pro se pleadings in response to Rule 12(b)(6) motions to dismiss, the Court
must liberally construe the claims set forth in the complaint, accept all factual allegations in the
complaint as true, and draw all reasonable inferences in favor of the plaintiff. See Aegis Ins.
Servs., Inc., 731 F.3d at 176; Grullon v. City ofNew Haven, 720 F.3d 133, 139 (2d Cir. 2013).
To state a viable claim, a plaintiff must satisfy “a flexible ‘plausibility standard.’” Iqbal v.
Hasty, 490 F.3d 143, 157 (2d Cir. 2007), rev’d on other grounds sub nom. Ashcroft v. Iqbal, 556
U.S. 662 (2009). In other words, “once a claim has been stated adequately, it may be supported
by showing any set of facts consistent with the allegations in the complaint.” BellAtl. Corp. v.
Twombly, 550 U.S. 544, 546 (2007). The Court, therefore, does not require “heightened fact

25

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 26 of 36 PagelD #: 808

pleading of specifics, but only enough facts to state a claim to relief that is plausible on its face.”
Id. at 570; see Operating Local 649 Annuity Trust Fund v. Smith Barney Fund Mgmt. LLC, 595
F.3d 86, 91 (2d Cir. 2010) (holding that a complaint must set forth “a plausible set of facts
sufficient ‘to raise a right to relief above the speculative level’”) (quoting Twombly, 550 U.S. at
555).
The Supreme Court clarified the appropriate pleading standard in Ashcroft v. Iqbal, 556
U.S. 662 (2009), in which the Court set forth a two-pronged approach to be utilized in analyzing
a motion to dismiss. First, district courts are to “identify [ ] pleadings that, because they are no
more than conclusions, are not entitled to the assumption of truth.” Id. at 679; see id. at 678 (“A
pleading that offers ‘labels and conclusions’ or ‘a formulaic recitation of the elements of a cause
of action will not do.’”). Though “legal conclusions can provide the framework of a complaint,
they must be supported by factual allegations.” Id. at 679. Second, if a complaint contains
“well-pleaded factual allegations, a court should assume their veracity and then determine
whether they plausibly give rise to an entitlement to relief.” Id. “A claim has facial plausibility
when the plaintiff pleads factual content that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged. The plausibility standard is not akin to a
‘probability requirement,’ but it asks for more than a sheer possibility that a defendant has acted
unlawfully.” Id. at 678 (citations omitted).
In adjudicating a Rule 12(b)(6) motion, the Court must limit itself to facts alleged in the
complaint, which are accepted as true; to documents attached to the complaint as exhibits or
incorporated in the complaint by reference; to matters of which judicial notice may be taken; or
to documents whose terms and effect are relied upon heavily in the complaint and, thus, are
rendered “integral” to the complaint. ASARCO LLC v. Goodwin, 756 F.3d 191, 198 (2d Cir.

26

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 27 of 36 PagelD #: 809

2014); see Chambers v. Time Warner, Inc., 282 F.3d 147, 152-53 (2d Cir. 2002). To the extent
“matters outside the pleadings are presented to and not excluded by the court, the motion must be
treated as one for summary judgment under Rule 56.” Fed. R. Civ. P. 12(d); see Wrap-N-Pack,
Inc. v. Eisenberg, No. 04-cv-4887, 2007 WL 952069, at *5 (E.D.N.Y. Mar. 29, 2007). The
Court limits its analysis here to the allegations of Pappas’ Complaint.
2.

Application

As an initial matter, Anthony Pappas cannot raise a viable claim against Justice Lorintz
because as a judicial officer, Justice Lorintz is shielded from suit by absolute judicial immunity.
“It is well settled that judges generally have absolute immunity from suits for money damages
for their judicial actions.” Bliven v. Hunt, 579 F.3d 204, 209 (2d Cir. 2009). “In addition, as
amended in 1996, § 1983 provides that ‘in any action brought against a judicial officer for an act
or omission taken in such officer's judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable.’” Id. (quoting 42 U.S.C. §
1983); see Burdick v. Town of Schroeppel, 717 Fed. App'x 92, 93 (2d Cir. 2018) (summary
order); Shtrauch v. Dowd, 651 Fed. App'x 72, 73 (2d Cir. 2016) (summary order). Here, Pappas’
allegations related to Justice Lorintz exclusively concern his judicial conduct. See, e.g., Compl.
f 21(b) (alleging that Justice Lorintz “ignored requests for an explanation or justification for
money judgments that remain in effect despite funds restrained, seized or readily available for
immediate satisfaction,” and has “restrained monies needed for personal living expenses and
lawyer fees”). Pappas’ claims against Justice Lorintz must therefore fail.
Similarly, both Justice Lorintz and the State of New York are protected from suit by the
Eleventh Amendment to the United States Constitution. “The Eleventh Amendment bars federal
courts from entertaining suits brought by private parties against a state in its own name.”

27

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 28 of 36 PagelD #: 810

Peterson v. Tomaselli, 469 F. Supp. 2d 146, 157 (S.D.N.Y. 2007); McNiece v. Connecticut, No.
3:15-CV-1036, 2016 WL 1118249, at *2 (D. Conn. Mar. 22, 2016), affd, 692 Fed. App'x 655
(2d Cir. 2017). “As a result, ‘[a] State is thus immune from suits in federal court ... and such
immunity extends to officers acting on behalf of the State.’” Deadwiley v. New York State Office
of Children & Family Servs., 97 F. Supp. 3d 110, 115 (E.D.N.Y. 2015) (quoting Winokur v.
Office of Court Admin., 190 F. Supp. 2d 444, 448 (E.D.N.Y. 2002)). In addition to protecting
against suits for money damages, “the Eleventh Amendment bars retrospective declaratory relief
against state officials.” New York State Court Clerks Ass'n v. Unified Court Sys. of the State of
New York, 25 F. Supp. 3d 459, 468 (S.D.N.Y. 2014). No matter the type of relief sought,
because Justice Lorintz and the State of New York are immune from suit, Plaintiff Pappas’
claims against these Defendants must fail.
The remaining Defendants - Maria Pappas, Attorney Kruman, and TD Bank - are private
individuals and a private entity. As such, Anthony Pappas’ Section 1983 claims against them
cannot proceed. Section 1983 imposes liability on, and creates a right of action against, anyone
who, under color of state law, deprives a person “of any rights, privileges, or immunities secured
by the Constitution and laws.” 42 U.S.C. § 1983; see Blessing v. Freestone, 520 U.S. 329, 340
(1997). To raise a successful claim under Section 1983, a plaintiff must sufficiently allege “that
(1) the challenged conduct was attributable at least in part to a person who was acting under
color of state law and (2) the conduct deprived the plaintiff of a right guaranteed under the
Constitution” and laws of the United States. Kohutka v. Town ofHempstead, 994 F. Supp. 2d
305, 316-17 (E.D.N.Y. 2014) (quoting Snider v. Dylag, 188 F.3d 51, 53 (2d Cir. 1999) (citation
omitted)). Because Maria Pappas and Attorney Kruman are private actors, Pappas is unable to
allege that any of their conduct was attributable at least in part to a person acting “under color of

28

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 29 of 36 PagelD #: 811

state law.” Plaintiff Pappas’ constitutional claims against these individuals and the bank under
Section 1983 must therefore fail.
Finally, as to Plaintiffs’ “federal election law” claim, Pappas does not specify under
which section of Title 52 of the United States Code he purports to bring his claims. As a result.
he has failed to put forth a sufficient legal basis to state a viable claim.

5

For the reasons stated above, Plaintiffs’ Complaint fails to state a viable cause of action
against any of the named Defendants.
C.

Ability to Amend the Complaint

Although he has not submitted a proposed amended complaint, Anthony Pappas states
that he “individually will move this Court for an order denying defendant [.s7c] motions for
dismissal pursuant to FRCP 12(b)(1) and 12(b)(6) and an order granting leave to amend the
Verified Complaint to add facts arising since its filing.” DE 36. Whether to grant leave to
amend is a decision squarely within the district court’s discretion. Krupski v. Costa Crociere S.
p. A., 560 U.S. 538, 540 (2010) (“[Rule 15(a)] gives a district court discretion to decide whether
to grant a motion to amend a pleading before trial.”); MHANY Mgmt. v. Cty. of Nassau, 843 F.
Supp. 2d 287, 340 (E.D.N.Y. 2012) (noting that “it is ultimately within the sound discretion of
the court whether to grant leave to amend”). A court “should freely give leave when justice so
requires.” Fed. R. Civ. P. 15(a)(2); Iqbal v. Ashcroft, 51A F.3d 820, 822 (2d Cir. 2009) (quoting
Fed. R. Civ. P. 15(a)(2)); Grace v. Rosenstock, 228 F.3d 40, 56 (2d Cir. 2000) (same); Guideone
Specialty Mut. Ins. Co. v. Hapletah, No. 05 Civ. 1401, 2006 WL 1455468, at *1 (E.D.N.Y. May
24, 2004) (“[Rule 15(a)] provides for a liberal amendment of pleadings.”).

5 Additionally, there appears to be a complete lack of support for Pappas’ position that
he has an implied private right of action under Title 52. See Pis.’ Opp’n. at 5-11.
29

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 30 of 36 PagelD #: 812

Notwithstanding this liberal standard, “[o]ne appropriate basis for denying leave to
amend is that the proposed amendment is futile.” Lucente v. Int'l Bus. Machines Corp., 310 F.3d
243, 258 (2d Cir. 2002); Ruffolo v. Oppenheimer & Co., 987 F.2d 129, 131 (2d Cir. 1993)
(“Where it appears that granting leave to amend is unlikely to be productive ... it is not an abuse
of discretion to deny leave to amend.”). “An amendment to a pleading is futile if the proposed
claim could not withstand a motion to dismiss pursuant to Fed. R. Civ. P. 12(b)(6).” Ferrara v.
Smithtown Trucking Co., 29 F. Supp. 3d 274, 279 (E.D.N.Y. 2014); Dougherty v. Town ofN.
Hempstead Bd. of Zoning Appeals, 282 F.3d 83, 88 (2d Cir. 2002).
Here, it is apparent to the Court that any attempt by Plaintiff Pappas to amend his
Complaint would be futile. Pappas wishes to amend his Complaint to include allegations of a
levy on his accounts that was issued after the Complaint was filed. He contends as follows:
Since this action was filed, a second levy was made in November,
2018 upon funds remaining in plaintiffs federal campaign account
to bring it into a negative balance. This theft occurred under
authority of a state judge who refused to limit or vacate an overbroad
restraining order in a divorce case. The authority was abused by the
remaining defendants to complete the theft.
Pis.’ Opp’n. at 6. However, these allegations pertain to Pappas’ continued dissatisfaction with
the manner in which the state court divorce proceeding was adjudicated. Any amendments
would therefore remain focused on what Plaintiff Pappas sees as a “biased” system and the
flawed disposition it rendered. As a result, the gravamen of the suit would remain as it exists
now, and the suit would remain within the scope of the domestic relations exception to federal
jurisdiction.
The Court respectfully recommends to Judge Seybert that Anthony Pappas’ cross-motion
to amend his Complaint be DENIED.

30

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 31 of 36 PagelD #: 813

D.

Limited Filing Injunction

The State of New York as well as Maria Pappas and Attorney Kruman ask the Court to
issue a limited filing injunction against Anthony Pappas. “A district court may, in its discretion,
impose sanctions against litigants who abuse the judicial process.” Shafti v. British Airways,
PLC, 83 F.3d 566, 571 (2d Cir. 1996); Dekom v. Fannie Mae, No. CV 17-2712, 2019 WL
1259103, at *11 (E.D.N.Y. Feb. 26, 2019), report and recommendation adopted, No. 17-CV2712, 2019 WL 1403116 (E.D.N.Y. Mar. 28, 2019). District courts consider the following
factors when determining whether to restrict a litigant’s future access to the courts through a
filing injunction:
(1) the litigant's history of litigation and in particular whether it
entailed vexatious, harassing or duplicative lawsuits; (2) the
litigant's motive in pursuing the litigation, e.g., does the litigant have
an objective good faith expectation of prevailing?; (3) whether the
litigant is represented by counsel; (4) whether the litigant has caused
needless expense to other parties or has posed an unnecessary
burden on the courts and their personnel; and (5) whether other
sanctions would be adequate to protect the courts and other parties.
Safirv. U.S. Lines, Inc., 792 F.2d 19, 24 (2d Cir. 1986); Mantis Transp. v. Kenner, 45 F. Supp. 3d
229, 256 (E.D.N.Y. 2014) (quoting Safir, 792 F.2d at 24).
While Pappas is not represented by counsel, the Court finds that the other four factors
(i.e., factors (1), (2), (4) and (5)) favor imposition of a limited filing injunction. As to Pappas’
history of litigation, the instant lawsuit is nearly identical to Pappas I. Pappas unsuccessfully
appealed Judge Seybert’s decision in Pappas I to the Second Circuit. Prior to commencing the
instant action, Pappas moved pursuant to N.Y. C.P.L.R. Article 78 to compel Justice Lorintz to
vacate the purported 2011 gag order in the divorce proceeding. See DE 34-9. The New York
State Supreme Court, Appellate Division, Second Department denied Pappas’ petition in an
Order dated November 1, 2017. See id. After filing the instant action and unsuccessfully
31

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 32 of 36 PagelD #: 814

moving for a temporary restraining order before Judge Seybert, Pappas filed a petition for a writ
of mandamus to the Second Circuit in an attempt to gain the same extraordinary relief Judge
Seybert had denied him. The Second Circuit denied his petition, finding that he failed to
“demonstrate that exceptional circumstances warrant the requested relief.” DE 41. Pappas then
filed a petition for a writ of certiorari to the United States Supreme Court, seeking review of the
Second Circuit’s denial of his mandamus petition. On May 20, 2019, the Supreme Court denied
his petition. Pappas’ prodigious and extensive history of litigation weighs in favor of issuing a
filing injunction against him.
As to Pappas’ litigation motives, it does not appear that Pappas had an objective good
faith belief that he would prevail in his litigation activities post-Pappas I. As observed, the
instant suit is nearly identical to Pappas I, in which Judge Seybert stated that, even if the Court
had jurisdiction, Pappas failed to state a claim against any of the defendants. Pappas I, 2014 WL
3890149, at *4. Specifically, the judicial defendants were immune from suit, and Maria Pappas
and Attorney Kruman were not liable under Section 1983 because they are private actors. See id.
While Plaintiff Pappas argues that the domestic relations exception should not apply to the
instant suit, he makes no serious attempt to cure the immunity issue or the private actor issue
with respect to Maria Pappas and Attorney Kruman. In the Court’s view, it is unlikely Plaintiff
Pappas harbored an objective good faith belief that the instant suit would be successful
following Judge Seybert’s determination in Pappas I. His forays to the Second Circuit and
United States Supreme Court appear similarly and objectively without merit.
With respect to whether Anthony Pappas has caused needless and unreasonable expense
to other parties or the Court and its personnel, the answer appears to be yes. It is difficult to
dispute that Pappas’ filings, in all of their iterations, have occupied significant time of the parties

32

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 33 of 36 PagelD #: 815

and the Court. The fact that his filings reassert arguments the Court has previously declined to
credit is indicative of the “needless” expense Pappas’ activities have caused to accrue. Such
expenditures of time and energy here - both by the Court and the litigants - do not meet a
standard of reasonableness. Moreover, Pappas’ conduct appears indicative of future activity,
namely, to continue to seek relief which this Court cannot grant. In the Court’s view, this
illustrates why money sanctions would not be effective.
Finally, although Pappas has been proceeding pro se, he is, by his own account, not an
unsophisticated litigant. Rather, Anthony Pappas is a professor at a local university and is a
former congressional candidate.6 See Compl. f 2. In short, although he has proceeded without
the assistance of counsel, he has a substantial educational background and extensive experience
with both state and federal courts.
Having considered the factors enumerated in Safir, this Court concludes that the
imposition of an injunction against Anthony Pappas preventing him from commencing actions in
this Court, on behalf of himself or Anthony Pappas for Congress, is warranted. See Mantis
Transp., 45 F. Supp. 3d at 256;); Dekom, 2019 WL 1259103, at *11. Before imposing a filing
injunction, however, a court must first provide a litigant with notice and an opportunity to be
heard. Mantis, 45 F. Supp. 3d at 256-57; Moates v. Barkley, 147 F.3d 207, 208 (2d Cir. 1998)
(per curiam) (“The unequivocal rule in this circuit is that the district court may not impose a
filing injunction on a litigant sua sponte without providing the litigant with notice and an

6

According to a St. John’s University faculty profile submitted with the State of New
York’s motion to dismiss, Pappas is an Associate Professor of Economics and Finance. He
received a B.S. in Economics and Mathematics from the Massachusetts Institute of Technology,
an M.A. in Economics from Yale, an M.Phil. in Economics from Yale, and a Ph.D. in Economics
from Yale. See DE 32-3.
33

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 34 of 36 PagelD #: 816

opportunity to be heard.”); Lau v. Meddaugh, 229 F.3d 121, 123 (2d Cir. 2000) (citing Moates,
147 F.3d at 208).
Courts in the Second Circuit have dealt with the notice provision in various ways. See,
e.g., Mantis, 45 F. Supp. 3d at 257; Dekom, 2019 WL 1259103, at *11. In Dekom, the magistrate
judge in her report and recommendation recommended that the plaintiff be directed to show
cause as to why he should not be barred from filing future complaints related to a foreclosure
action without leave of a court. 2019 WL 1259103, at *11. In his order adopting the report and
recommendation, the district judge gave the plaintiff a specific deadline to file any objections to
the recommendation that the court issue an order to show cause with respect to a litigation
injunction. See Dekom v. Fannie Mae, No. 17-CV-2712, 2019 WL 1403116, at *1 (E.D.N.Y.
Mar. 28, 2019).
In Mallgren v. Burkholder, 52 F. Supp. 3d 490 (E.D.N.Y. 2014), the district court issued
an order directing plaintiff to show cause why he should not be barred from filing future
complaints without leave of the court. 52 F. Supp. 3d at 497. The court ultimately found that the
plaintiffs “Affirmation Showing Cause” did not offer any valid reason why the plaintiff should
not be barred from filing future in forma pauperis complaints and that the plaintiffs frequent
filings detracted from the legitimate cases before the Court. Id. As such, the court determined
that plaintiffs history warranted the imposition of a filing injunction. See Mantis, 45 F. Supp. 3d
at 257 (directing the pro se plaintiff to file affidavit stating why an order should not issue
enjoining plaintiff from filing any new civil action or proceeding without first obtaining leave of
the court by requiring the plaintiff to take specific enumerated steps).
This Court entrusts these considerations to Judge Seybert for her ultimate determination
concerning notice with respect to a filing injunction.

34

Case 2:18-cv-04199-JS-AKT Document 47 Filed 08/02/19 Page 35 of 36 PagelD #: 817

V.

Conclusion
For the foregoing reasons, the Court respectfully recommends to Judge Seybert that (1)

Defendants’ motions to dismiss for lack of subject matter jurisdiction be GRANTED, and
Plaintiffs’ Complaint be DISMISSED, and (2) Plaintiffs’ cross-motion to amend be DENIED.
The Court further recommends that Anthony Pappas be directed to show cause why he should
not be barred from filing future complaints without first obtaining leave of the Court.
VI.

Objections
Pursuant to 28 U.S.C. § 636(b)(1)(c) and Rule 72 of the Federal Rules of Civil Procedure,

the parties shall have fourteen (14) days from service of this Report and Recommendation to file
written objections. See also Fed. R. Civ. P. 6(a), (e). Such objections by an attorney of record
shall be filed with the Clerk of the Court via ECF. In the case of a plaintiff proceeding pro se,
the plaintiff must file his objections in writing with the Clerk o fthe Court within the 14-day
period noted above. A courtesy copy of any objections filed is to be sent to the Chambers of
the Honorable Joanna Seybert. Any requests for an extension of time for filing objections
must be directed to Judge Seybert prior to the expiration of the 14-day period for filing
objections. Failure to file objections will result in a waiver of those objections for purposes of
appeal. Thomas v. Am, 474 U.S. 140, 155 (1985); Beverly v. Walker, 118 F.3d 900, 901 (2d Cir.
1997), cert, denied, 522 U.S. 883 (1997); Savoie v. Merchants Bank, 84 F.3d 52, 60 (2d Cir.
1996).
Counsel for the State of New York is directed to serve a copy of this Report and
Recommendation upon the pro se plaintiff forthwith by overnight mail and first-class mail
and to file proof of such service on ECF by the close of business on August 6. 2019.

35

Case 2:18-CV-04199-JS-AKT Document 47 Filed 08/02/19 Page 36 of 36 PagelD #: 818

SO ORDERED.
Dated: Central Islip, New York
August 2, 2019
/s/ A. Kathleen Tomlinson
A. KATHLEEN TOMLINSON
U.S. Magistrate Judge

36

Case 2:18-cv-04199-JS-AKT Document 52 Filed 08/28/19 Page 1 of 2 PagelD #: 844

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X
ANTHONY PAPPAS FOR CONGRESS, a
political organization created under Title 52 of
the Federal Code, and ANTHONY PAPPAS,
individually,
Plaintiffs,
JUDGMENT
CV 18-4199 (JS) (AKT)

- against JOSEPH LORINTZ, individually and as Supreme
Court Judge of the State of New York; HENRY
KRUMAN, MARIA PAPPAS, TD BANK, N.A.,
and the STATE OF NEW YORK,
Defendants.
X

An Electronic Order Adopting Report and Recommendations of Honorable Joanna
Seybert, United States District Judge, having been filed on August 26, 2019; adopting the August
2, 2019 Report and Recommendation of United States Magistrate Judge A. Kathleen Tomlinson
in its entirety; granting Defendants’ motions to dismiss; dismissing Plaintiffs’ claims for lack of
subject matter jurisdiction; denying Plaintiffs’ cross-motion to amend; directing Plaintiff
Anthony Pappas, in the future, to Show Cause why he should not be barred from filing
complaints without leave of court; and directing the Clerk of the Court to enter judgment
accordingly and to mark this case closed, it is
ORDERED AND ADJUDGED that Plaintiffs Antony Pappas and Anthony Pappas for
Congress take nothing of Defendants Joseph Lorintz, Henry Kruman, Maria Pappas, ID Bank,
N.A., and the State of New York; that Defendants’ motions to dismiss are granted; that
Plaintiffs’ cross-motion to amend is denied; that Plaintiffs’ claims are dismissed for lack of
subject matter jurisdiction; that in the future Plaintiff Anthony Pappas is directed to Show Cause
in writing why he should not be barred from filing any complaints without leave of court; and
that this case is closed.

Case 2:18-cv-04199-JS-AKT Document 52 Filed 08/28/19 Page 2 of 2 PagelD #: 845

Dated: August 28, 2019
Central Islip, New York

By:

2

DOUGLAS C. PALMER
Clerk of the Court
/s/ James J. Toritto
Deputy Clerk

